APPENDIX

la
APPENDIX A

fHntteb States. Court of SUppeate
Jfor tlic €tgF)tfj Circuit

No. 20-1299
Charles L. Burgett
Plaintiff - Appellant
v.
The General Store No Two Inc., et al.
Defendants - Appellees
Appeal from United States District Court
for the Western District of Missouri - Kansas City

Submitted: October 8, 2020
Filed: October 22, 2020
[Unpublished]

Before LOKEN, GRUENDER, and GRASZ, Circuit Judges.

PER CURIAM.
Charles Burgett brought this pro se 42 U.S.C. § 1983 action against multiple
defendants. The district court1 dismissed all claims with prejudice as a sanction for
'The Honorable Stephen R. Bough, United States District Judge for the
Western District of Missouri.

2a

Burgett’s willful discovery violations, explaining in a lengthy Order that Burgett’s
willful, bad faith defiance of “at least four Court orders” had prejudiced defendants.
This court affirmed. Burgett v. Gen. Store No Two Inc., 727 Fed. Appx. 898, 900
(8th Cir. 2018), cert, denied, 139 S. Ct. 2638 (2019). Burgettnow appeals the court’s
order taxing costs in favor of defendants in the total amount of $6,9875.23. After
careful review of the entire record, we conclude the court did not abuse its substantial
discretion in taxing costs and therefore affirm. See Fed. R. Civ. P. 54(d)(1);
Dindinger v. Allsteel, Inc., 853 F.3d 414, 431 (8th Cir. 2017) (standard of review).
Defendants were prevailing parties presumptively entitled to recover costs
properly taxable under 28 U.S.C. § 1920. A district court has discretion to tax the
costs of printed and electronic transcripts of the same deposition, provided both were
“necessarily obtained” for use in the case. See Stanley v. Cottrell, Inc., 784 F.3d454,
465-67 (8th Cir. 2015); Zotos v. Lindbergh Sch. Dist., 121 F.3d 356, 363 (8th Cir.
1997). Discovery-related copying is taxable, particularly in a case where the losing
party’s discovery abuses were determinative. See Op. Eng’rs Local #49 Health &
Welfare Fund v. Charps Welding & Fab., Inc., 950 F.3d 510, 527 (8th Cir. 2020).
Defendants submitted evidence that all costs taxed were not duplicative and were in
fact paid. The court did not abuse its discretion in declining to deny or reduce taxable
costs on account of Burgett’s alleged indigency, particularly given his willful abuse
of the discovery process that prejudicially increased defendants’ litigation costs. See
Smith v. Tenet Healthsvstem SL, Inc., 436 F.3d 879, 889 (8th Cir. 2006).
The district court’s text only order entered January 13, 2020 is affirmed.
Appellant’s motion to strike the brief of appellee The General Store No Two Inc. is
denied.

-2-

3a
APPENDIX B
CLOSED,MAPADMIN

U.S. District Court
Western District of Missouri (Kansas City)
CIVIL DOCKET FOR CASE #: 4:16-cv-00455-SRB
Burgett v. General Store No Two Inc, The et al
Assigned to: District Judge Stephen R. Bough
Case in other court: Jackson County Circuit Court, 1616-CV08489
8th Circuit Court of Appeals, 17-01916
8th Circuit Court of Appeals, 20-01299
Cause: 28:1983 Civil Rights

Date Filed: 05/18/2016
Date Terminated: 12/28/2016
Jury Demand: Defendant
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Charles Burgett

represented by Charles Burgett
P.O. Box 24826
Kansas City, MO 64131
PROSE

V.
Defendant
General Store No Two Inc, The
doing business as
Marsh's Sunffesh Market

represented by Ryan E. Karaim
Franke, Schultz & Mullen - KCMO
8900 Ward Parkway
Kansas City, MO 64114
(816)421-7100
Fax:(816)421-7915
Email: rkaraim@fsmlawfirm.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
W.S.C. Services, Inc.

represented by Meagan L. Blackwell-Patterson
Waldeck & Patterson P.A.
5000 West 95th Street
Suite 350
Prairie Village, KS 66207
(913) 749-0320
Fax: (913) 749-0301
Email: meaganp@waldeckpatterson.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brooke Blake
Waldeck & Patterson P.A.
5000 West 95th Street
Suite 350

4a

Prairie Village, KS 66207
913-749-0318
Fax: 913-749-0301
Email: brookeb@waldeckpatterson.com
TERMINATED: 01/04/2017
Laura Van Note
Wallace, Saunders, Austin, Brown &
Enochs, Chartered-OPKS
10111 West 87th Street
Overland Park, KS 66212
913-749-0300
Fax: 913-749-0301
Email: laurav@waldeckpatterson.com
TERMINATED: 09/02/2016

Defendant
Andrei Florea
in his official capacity as an employee of
W.S.C. Services Inc. and agent ofMarsh's
Sunfresh Market, and in his individual
capacity

represented by Meagan L. Blackwell-Patterson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brooke Blake
(See above for address)
TERMINATED: 01/04/2017
Laura Van Note
(See above for address)
TERMINATED: 09/02/2016

Defendant
Thomas Bethel
in his official capacity as a police officer,
and in his individual capacity

represented by Nicolas Taulbee
Missouri Attorney General's Office-KC
615 East 13th Street
Suite 401
Kansas City, MO 64106
(816) 889-5000
Fax: (816) 889-5006
Email: nicolas.taulbee@ago.mo.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lynnette Nefertiti Lockhart
Missouri Attorney General's Office-KC
615 East 13th Street
Suite 401
Kansas City, MO 64106
816-889-5013
Fax: 816-889-5006
Email: lynnette.lockhart@ago.mo.gov
TERMINATED: 02/20/2020

Defendant

Terry Grimmett
in his official capacity as a police officer,
and in his individual capacity

5a

represented by Nicolas Taulbee
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lynnette Nefertiti Lockhart
(See above for address)
TERMINATED: 02/20/2020

Defendant
Matthew Payne
in his official capacity as a police officer,
and in his individual capacity

represented by Nicolas Taulbee
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Lynnette Nefertiti Lockhart
(See above for address)
TERMINATED: 02/20/2020

Date Filed
01/13/2020

#

Docket Text

149 Before this Court is Plaintiffs pro se Memorandum in support of the Motion to Retax
Costs (#143). Plaintiff basically reargues the issues decided by this Court in an Order
dated December 4, 2019 (Doc. # 142). Defendants W.S.C. Services, Inc. and Andrei
Florea concede $54.00 in delivery costs are not recoverable. Plaintiffs Memorandum
(Doc. #143), construed as a Motion, is denied and costs are awarded in the amount of
$3,282.15 to defendants W.S.C. Services, Inc. and Andrei Florea; $1,998.24 to defendant
The General Store No. Two, Inc., d/b/a/ Marshs Sun Fresh Market; and $1,704.84 to
defendants Terry Grimmett, Thomas Bethel, and Matthew Payne. Signed on 1/13/20 by
District Judge Stephen R. Bough. This is a TEXT ONLY ENTRY. No document is
attached. (Diefenbach, Tracy) Copy of this order mailed to: Charles Burgett, P.O. Box
24826, Kansas City, MO 64131 (Entered: 01/13/2020)

'<T7T

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1299
Charles I,. Burgett
Appellant
v.
The General Store No Two Inc., doing business as Marsh's Sunfresh Market, et al.
Appellees

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:16-cv-00455-SRB)
ORDER
•The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
December 15, 2020

-Order Entered at-the Direction of the Court; Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

7a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
CHARLES BURGETT
Plaintiff,
v.
i

Case No. 16-0455-CV-W-SRB

THE GENERAL STORE NO. TWO INC , et al„
Defendants.

OBJECTIONS TO THOMAS BETHEL. MATTHFW PAYNE
AND TERRY GRIMMETT’S Ril l, OF COSTS

o

cn
co

Plaintiff Charles Burgett (Burgett) makes the following objections to defendants’ Thomas
Bethel, Matthew Payne and Terry Grimmett purported bill of costs. (Doc. #115).
On December 28, 2016, the court unjustly dismissed all of Burgett’s claims [not on the
merits] and all defendants; and issued judgment. On January 18, 2017, the instant defendants
purportedly filed the bill of costs.
Local Rule 54.1(a) states, “A party seeking an award of costs shall file a verified bill of
costs, upon a form provided by the Clerk, no later than 21 days after entry offinal
judgment pursuant to Fed.R.Civ.P. 58 (emphasis added in original).” The defendants’ counsel,
Lynnette Lockhart did not timely or otherwise “file a verified bill of costs, upon a form provided
by the Clerk” within the required time of “21 days after entry of final judgment pursuant to
Fed.R Civ.P. 58.” Therefore, for this reason alone, Doc. #115 must be stricken as untimely and
not allowed, and the clerk should not enter the bill of costs.
Notwithstanding, the costs for the stenographic transcripts were not necessarily incurred. The
transcripts (Doc. ## 115-2, 115-3) establish a duplicate cost. The transcript costs were shared.
See Doc. ##113-1, P. 6; 114-1, PP. 2-3. The costs regarding (Doc. #115-3) were predicted on a
biased ruling of the court and were not necessarily incurred.
The costs for (Doc. ##115-2, 115-3) were not paid [invoices show balance due]. Thomas
Bethel, Matthew Payne and Terry Grimmett did not file proof of payment in respect to (Doc. ##
115-2, 115-3).

1
Case 4:16-cv-00455-SRB Document 119 Filed 01/30/17 Pane 1 of 3

8a

Based on the foregoing reasons, no amount ($.00) should be taxed as costs against Burgett.
The parties should pay their own costs. Plaintiff Charles Burgett asks the clerk not to enter
defendants’ Thomas Bethel, Matthew Payne and Terry Grimmett purported bill of costs.
Submitted,

Charles Burgett
Plaintiff Pro se
PO Box 24826
Kansas City, Missouri 64131
(816)521-0339

2
Case 4:16-cv-00455-SRB Document 119 Filed 01/30/17 Pane 2 of 3

9a

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
CHARLES BURGETT
Plaintiff,
Case No. 16-0455-CV-W-SRB

v.
THE GENERAL STORE NO TWO INC, et al.,
Defendants.

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing document was served by first class US. mail,
postage prepaid, on January 30, 2017 to:
Lynnette N. Lockhart
615 E. 13th Street, Suite 401
Kansas City, MO 64106
Ryan E. Karaim
8900 Ward Parkway
Kansas City, MO 64114
Meagan L. Bfackwell-Patterson
5000 West 95th Street, Suite 350
Prairie Village, KS 66207

Charles L. Burgett

3
Case 4:16-cv-00455-SRB Document 119 Filed 01/30/17 Pane 3 of 3

10a
APPENDIX E

Or

IN THE UNITED STATES DISTRICT COURT FOR THE
MS
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION

-r?VE0 :

DEC 11 PM 3* 44

CHARLES BURGETT
Plaintiff,
v.

Case No. 16-0455-CV-W-SRB

THE GENERAL STORE NO. TWO INC., et al„
Defendants.

PLAINTIFF'S MEMORANDUM IN SUPPORT OF MOTION TO RETAX COSTS
Plaintiff Charles Burgett (Burgett) asks the court to RETAX costs assessed by the clerk (Doc.
#142).

On December 28,2016, the court [as an unwarranted sanction] unjustly dismissed Burgett’s
entire civil rights lawsuit with prejudice, and, issued judgment [no findings were made on the
merits].
On January 30,2017, Burgett filed objections to defendants’ W.S.C. Services, Inc. and
Andrei Florea (Doc. #117) and, the General Store No. Two Inc. (Doc. #118) bills of costs; and,
defendants' Thomas Bethel, Matthew Payne and Terry Grimmett purported bill of costs (Doc.
#119).
On December 4, 2019, the clerk assessed the bills of costs (Doc. ##113, 114, 115) over the
objections of Burgett. The total of the bills of costs is $7,248.09 [$6,745.83 - transcripts;
$502.26- copies].
W.S.C. Services. Inc, and Andrei Florea
The court should vacate the award of costs because the costs were not necessarily
incurred in the case. See 28 U.S.C. §1924. Specifically, the clerk awarded delivery costs for
transcripts, which are not recoverable. Smith v. Tenet HealthSystem SL., Inc., 436 F.3d 879, 889
(8thCir.2006). See Doc. #113-1, PP. 5 of 8 - 8 of 8.
The court should vacate the award of costs because incurred costs were unnecessary,
duplicate and unreasonably high. Cantrell v. Int'l Bhd ofElec. Workers, 69 F.3d 456, 459
(10th Cir. 1995).
1
Case 4:16-cv-00455-SRB Document 143 Filed 12/11/19 Pane 1 of 4

11a

The costs for the videotaped deposition and stenographic transcripts were not necessarily
incurred. The deposition was unnecessary and was not used in the proceeding. See Doc. #117,
P. 1. No costs should be recoverable for both a videotaped deposition and stenographic
transcript. Id.; Cherry v. Champion Int'l Corp., 186 F.3d 442, 448-449 (4thCir. 1999).
The costs for (Doc. # 113-1, PP. 6, 8) were not paid [invoices show balance due]. See Id.;
Doc. #117, P. 1. The court should vacate the award of costs because there is no proof of
payment or obligation to pay the costs.
When itemizing copy costs (Doc. #113-1, P. 2), defendants’ counsel did not identify what was
copied and why the copying was necessary for the case. See Id.; Doc. #117, P. 1; 28 U.S.C.
§1920; In re Online DVD-Rental Antitrust Litig., 779 F.3d at 993; US. v. Merritt Meridian
Constr. Corp., 95 F.3d 153, 173 (2d Cir.1996); Eolas Techs., 891 F.Supp.2d at 807. The court
should vacate the award of costs.
The General Store No. Two Inc.
The court should vacate the award of costs because incurred costs were unnecessary,
duplicate and unreasonably high. Cantrell v. Int’l Bhd. of Elec. Workers, 69 F.3d 456, 459
(10th Cir.1995). The costs for the stenographic transcripts were not necessarily incurred; the
transcripts establish a duplicate cost; and, the deposition was unnecessary and was not used in
the proceeding. See Doc. #118, P. 1.
The costs for (Doc. # 114-1, PP. 2-3) were not paid [invoices show balance due]. See Id.,
Doc. #118, P. 1. The court should vacate the award of costs because there is no proof of
payment or obligation to pay the costs.
When itemizing copy costs (Doc. #114-1, P. 4), defendant’s counsel did not identify what was
copied and why the copying was necessary for the case. See Id.; Doc. #118, P. 1; 28 U.S.C.
§1920; In re Online DVD-Rental Antitrust Litig., 779 F.3d at 993; U.S. v. Merritt Meridian
Constr. Corp., 95 F.3d 153, 173 (2d Cir.1996); Eolas Techs., 891 F.Supp.2d at 807. The court
should vacate the award of costs.
Thomas Bethel. Matthew Payne and Terry Grimmett
The foregoing defendants waived the purported bill of costs because, "a verified bill of costs
[was not timely filed], upon a form provided by the [c]lerk", pursuant to Local Rule 54.1(a). See
Doc. #119, P. 1. The court should vacate the award of costs.

2
Case 4:16-cv-00455-SRB Document 143 Filed 12/11/19 Pane 2 of 4

12a

Notwithstanding, the court should vacate the award of costs because incurred costs were
unnecessary, duplicate and unreasonably high. Cantrell v. Int’l Bhd. of Elec. Workers, 69
F.3d 456,459 (10th Cir.1995). The costs for the stenographic transcripts were not necessarily
incurred; the transcripts establish a duplicate cost; and, the deposition was unnecessary and was
not used in the proceeding. See Doc. #119, P. 1.
The costs for (Doc. ## 115-2,115-3) were not paid [invoices show balance due]. See Id.,
Doc. #119, P. 1. The court should vacate the award of costs because there is no proof of
payment or obligation to pay the costs.
Common to All defendants* Bills of Costs
The clerk improperly assessed costs for all six party defendants. The term, "the prevailing
party" as used in FRCP 54 is singular; therefore, the Rule allows for only one "prevailing party".
Shum v. Intel Corp., 629 F.3d 1360, 1367 (Fed.Cir.2010). The court should vacate the award
of costs.
The court should vacate the award of costs because Burgett is indigent and is unable to
pay any of the assessed costs. Lampkins v. Thompson, 337 F.3d 1009,1017 (8thCir.2003). See
Affidavit of Assets, Income and Expenses, Exhibit 1. .
The court should vacate the award of costs because the award is inequitable under the
circumstances. Imposing an award of $7,248.09 costs when Burgett is indigent and has an
inability to pay would be inequitable. See id. Additionally, imposing costs on indigent civil
\

rights plaintiffs [like Burgett] who cases that were dismissed with prejudice [not on the
merits] will have a chilling effect on future similar actions. Escriba v. Foster Poultry Farms,
Inc., 743 F.3d 1236, 1247-48 (9thCir.2014).
For the above-stated reasons, Plaintiff Charles Burgett asks the court to VACATE the costs
erroneous assessed against him and to RETAX the costs.
Submitted,

3
Case 4:16-ov-00455-SRB Document 143 Filed 12/11/19 Pane 3 of 4

13a

Charles Burgett
Plaintiff Pro se
PO Box 24826
Kansas City, Missouri 64131
(816)521-0339

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing document was served by first class U.S. mail,
postage prepaid, on December 11,2019 to:
Meagan L. Blackwell-Patterson
5000 West 95th Street, Suite 350
Prairie Village, KS 66207
Ryan E. Karaim
8900 Ward Parkway
Kansas City, MO 64114
Nicolas Taulbee
615 E. 13th Street, Suite 401
Kansas City, MO 64106
Charles Burgett

4
Case 4:16-cv-00455-SRB Document 143 Filed 12/11/19 Pane 4 of 4

14a

EXHIBIT 1
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
CHARLES BURGETT
Plaintiff,
v.

Case No. 16-0455-CV-W-SRB

THE GENERAL STORE NO. TWO INC., et al„
Defendants.

AFFIDAVIT OF ASSETS. INCOME AND EXPENSES
I, Charles Burgett, affirm that I am the Plaintiff in this case, that because of my indigence I
am unable to pay any award of assessed costs. I further affirm that the details below and the
information I have given relating to my inability to pay assessed costs are true.
1. My Mailing Address and Telephone Number is:
P.O. Box 24826
Kansas City, Missouri 64131
816-521-0339
2. I receive monthly income of $950.00.
3. I do not own real property.
A. I do not own an automobile.
B. I have not received within the past 12 months any money from any of the following
sources:
Rent payments, interest or dividends; Pensions, trust funds, annuities or life insurance
payments; Gifts or inheritances; Welfare payments; ADC or other governmental child
support; Unemployment benefits; Social Security benefits.
C. I do not own any stocks, bonds or savings bonds either individually or jointly.

1
Case 4:16-cv-00455-SRB Document 143-1 Filed 12/11/19 Pane 1 of 2

* %

15a

4. I have the following monthly Obligations
A. Court Ordered Child Support - $387.00
B. Shelter Rent Expense - $400.00
C. Cell Phone Expense - $40.00.
D. VISA Payment - $75.00; Balance due: $2,800.00.

I affirm under penalty of perjury, pursuant to 28 U.S.C. §1746 that the details of this affidavit
and the information contained in the affidavit is true to the best of my knowledge and belief.
STATE OF MISSOURI )
JACKSON COUNTY )
Date Executed: December 11, 2019

.

Signature:
Printed Name: Charles Burgett, Plaintiff Pro Se

2
Case 4:16-cv-00455-SRB Document 143-1 Filed 12/11/19 Pane 2 of 2

i

16a
APPENDIX F

R^nnvFD

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
2028
WESTERN DIVISION

JAN -7 PH 3:22

1LL*K U.S. OfSWhc'T. OiST. Cf W
Kansas ch y.

CHARLES BURGETT
Plaintiff,

Case No. 16-0455-CV-W-SRB

v.
THE GENERAL STORE NO. TWO INC., et al.,
Defendants.

REPLY TO DEFENDANTS’ OPPOSITION TO MOTION TO RETAX COSTS
Plaintiff Charles Burgett hereby replies to defendants’ opposition (Doc. ##144, 145) to his
Motion to Retax Costs as follows:
From the outset, Burgett timely filed a document on December 11, 2019, which he believes is
a Motion to Retax Costs and Memorandum in Support combined. Burgett Pro se filing (Doc.
#143) should be liberally construed by the court as a Motion to Retax Costs and Memorandum in
Support combined and filed in one document. See Burgett's Motion for Extension to File Motion
to Retax Costs.
W.S.C, Services. Inc, and Andrei Florea
Video Deposition and Stenographic Transcripts
First, the defendants are claiming $3,316.15 for the videotaped deposition [$1,628.00] and
stenographic transcripts [$1,708.15] (Doc. #113-1, PP. 5-8). The court should vacate the
award of costs because incurred costs were unnecessary, duplicate and unreasonably high.
Cantrell v. Int’l Bhd. of Elec. Workers, 69 F.3d 456,459 (10th Cir.1995); This Reply, P. 3 infra.
Second, the defendants' counsel noticed Burgett for a video deposition not a video and
stenographic deposition. See (Doc. #60). Therefore, costs can only be claimed for the
videotaping and not the stenographic deposition. Morrison v. Reichhold Chemicals, Inc., 97 F
.3d 460, 464-65 (11th Cir .1996). Additionally, no costs should be recoverable for both a
videotaped deposition and stenographic transcript. Cherry v. Champion Int'l Corp., 186F.3d
442,448-449 (4thCir.l999).

1
Case 4:16-cv-00455-SRB Document 146 Filed 01/07/20 Pane 1 of 4

17a

Third, the videotaped deposition and stenographic deposition transcript were unnecessary and
were not used in the proceeding. The defendants' counsel only speculated that the stenographic
deposition transcript and videotaped deposition would have been used at trial ["had the matter
proceeded, [defendants would have used the transcript... as well as used the videotaped
deposition ... at trial (OPP, P. 3)."] The foregoing statement is an admission that the defendants
did not use the video deposition in the proceeding. In addition, as an attempt to support the
taking of the video deposition of Burgett, the defendants' counsel stated, "In the past, Plaintiff
had improperly refused to answer deposition questions ... (OPP, P. 4)." The defendants' counsel
nor any of the other defendants' counsel had previously deposed Burgett in the instant matter.
The defendants' counsel's statement is false. The costs for the videotaped deposition and
stenographic transcripts were not necessarily incurred. The court should be vacate the
award of costs.
Finally, the costs for invoice (Doc. #113-1, P. 8) [show balance due]; and, the defendants'
counsel continues not to provide any proof (e.g., cancelled checks) that the invoices (Doc. #1131, PP. 5-8) were paid. In fact, the invoices (Doc. #113-1, PP. 5-8) show that the costs were billed
to Nationwide Insurance Company not the defendants. The court should vacate the award of
costs because there is no proof of payment or obligation to pay the costs.
Copy Costs
The defendants are claiming $208.86 in copying costs (Doc. #113-1, P. 2). The order issued
in the "Ledar Transport" offered by defendants' counsel is not published; does not set any
precedent or authority for this case; and, is aged as compared to the case law assert by Burgett
infra. The foregoing documentation provided by the defendants for copy costs merely indicate
that photocopies were made. See Doc. #113-1, P.2 (“5755.32930 06/24/2016 1A B110 E101
0.060 8.40 Copying charges (140 pages @ .06/page)"). The defendants' counsel did not identify
what was copied and why the copied documents were necessary for the case. The providing of
inadequate detail regarding the copying costs is inconsistent with case law. See for example
Eolas Techs. Inc. v. Adobe Sys., Inc. 891 F.Supp.2d at 807 (2012). The court should vacate the
award of copying costs.

2
Case 4:16-cv-00455-SRB Document 146 Filed 01/07/20 Pane 2 of 4

18a

The General Store No. Two Inc.
Stenographic Transcript
The defendant is claiming $1,704.84 for the stenographic transcripts (Doc. #114-1, PP. 2-3),
which defendant's counsel claims is defendant's share (Doc. #126, P. 3). Based on the allegation
by defendant's counsel, the total shared costs for the stenographic transcripts is $5,004.68 (Doc.
##114-1, PP. 2-3; 115-2, 115-3; 113-1, PP.6,8). The so-called shared costs, inter alia, is
excessive. The costs for the stenographic transcripts were not necessarily incurred; the
transcripts establish a duplicate cost; and, the deposition was unnecessary and was not used in
the proceeding. The court should vacate the award of costs because incurred costs were
unnecessary, duplicate, unreasonably high and excessive. Cherry v. Champion Int'l Corp.,
186 F.3d 442, 448-449 (4thCir.l999); Cantrell v. Int'l Bhd. ofElec. Workers, 69 F.3d 456, 459
(10th Cir.1995); Teague v. Bakker, 35 F.3d 978, 996 (4thCir. 1994).
Notwithstanding, the costs for (Doc. #114-1, PP. 2-3) were not paid [invoices show balance
due]. The defendant's counsel continues not to provide any proof (e.g., cancelled checks) that
the invoices were paid. The court should vacate the award of costs because there is no proof
of payment or obligation to pay the costs.
Copy Costs
The defendant is claiming $293.40 in copying costs (Doc. #114-1, P. 4). More than 35
percent of the copies are at an excessive rate of .50 per page. The foregoing documentation
provided by the defendant for copy costs merely indicate that photocopies were made. See Doc.
#114-1, P.4 (“110.011 05/19/2016 2A 4 0.500 4.00 Photocopy expense (8 color copies @
0.50)"). The defendant’s counsel did not identify what was copied and why the copied
documents were necessary for the case. The providing of inadequate detail regarding the
copying costs is inconsistent with case law. See for example Eolas Techs. Inc. v. Adobe Sys.,
Inc. 891 F.Supp.2d at 807 (2012). The court should vacate the award of copying costs.
Thomas Bethel. Matthew Payne and Terry Grimmett
The foregoing defendants did not oppose Burgett’s Motion to Retax Costs. The court should
vacate the award of costs.

3
Case 4:16-cv-00455-SRB Document 146 Filed 01/07/20 Pane 3 of 4

19a

For the above-stated reasons and for the reasons stated in his Motion to Retax Costs, Plaintiff
Charles Burgett asks the court to VACATE the costs erroneous assessed against him and to
RETAX the costs.

Submitted,

Charles Burgett
Plaintiff Pro se
PO Box 24826
Kansas City, Missouri 64131
(816)521-0339

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing document was served by first class U.S. mail,
postage prepaid, on January 7, 2020 to:
Meagan L. Blackwell-Patterson
5000 West 95th Street, Suite 350
Prairie Village, KS 66207
Ryan E. Karaim
8900 Ward Parkway
Kansas City, MO 64114
Nicolas Taulbee
615 E. 13th Street, Suite 401
Kansas City, MO 64106
Charles Burgett

4
Case 4:16-cv-00455-SRB Document 146 Filed 01/07/20 Pane 4 of 4

20a
APPENDIX G
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
CHARLES BURGETT
Appellant,
Appeal No. 20-1299

v.
THE GENERAL STORE NO. TWO INC., et al,
Appellees.

MOTION TO STRIKE BRIEF OF APPELLEE,
THE GENERAL STORE NO. TWO INCAppellant Charles Burgett asks This Court to STRIKE the brief of appellee, the
General Store No. Two Inc. (Doc. # 4915293). This Motion to Strike Brief of
Appellee is being filed contemporaneously with Burgett's Reply Brief.
On February 12,2020, the Clerk of This Court issued Civil Case Docketing
Letter (Doc. # 4880769) to all case participants, including attorney Ryan Edward
Karaim. Id. at P. 4. The letter stated, inter alia, "Counsel in the case must supply
the clerk with an Appearance Form (If 2)." Burgett has not received a document
from attorney Karaim certifying that he entered his appearance before This Court
for appellee, The General Store No. Two Inc. nor does the Docket show that
attorney Karaim filed an Appearance of Counsel Form with the Clerk of This
Court. Therefore, no attorney licensed to practice in this jurisdiction has entered an
appearance on behalf of appellee, The General Store No. Two Inc. and appellee is
in default.
Attorney Karaim has a pattern of not following Federal Rules of Appellate
Eighth Circuit Rules and directives. For example: attorney Karaim
Procedure; and,
quired under Federal Rule of Appellate Procedure 25 and Eighth Circuit
was re
Rule 25A(e) to serve Burgett with the brief for The General Store Na Tw^Ina; _ ^

l

JUL 1 6 2020
»• r*

int r\r a nnr"a i r*

21a

however, Burgett did not received a copy of the same from Karaim. The Clerk of
This Court sanctioned the misconduct and sent Burgett a copy of the brief. See
Doc. ## 4923900,4923910. Attorney Karaim should not be allowed to ignore
Federal Rules of Appellate Procedure; and, Eighth Circuit Rules and directives.
This Court should strike the brief for The General Store No. Two Inc. because
attorney Karaim did not and has not entered his appearance before This Court, as
required by Federal Rule of Appellate Procedure 46, Eighth Circuit Rule 46A, and
directive from the Clerk of This Court (Doc. # 4880769, f 2).
Based on the foregoing, Appellant asks This Court to STRIKE the brief of
appellee, the General Store No. Two Inc.
Submitted,

Dated: July 13.2020

Charles L. Burgett, Appellant Pro Se
PO Box 24826
Kansas City, Missouri 64131
(816)521-0339

FILED
juLtsa®

2

